OIG Audit Report 03-21
Office of Justice Programs
Annual Financial StatementFiscal Year 2002
Report No. 03-21
June 2003
Office of the Inspector General
Commentary and Summary
This audit report contains the Annual Financial Statement of the Office of Justice Programs (OJP) for the fiscal years ended September 30, 2002 and September 30, 2001.  Under the direction of the Office of the Inspector General (OIG), the audit was performed by KPMG LLP and resulted in an unqualified opinion for FY 2002.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and the results of its operations.  For FY 2001, the OJP also received an unqualified opinion on its financial statements (OIG Report 02-25).
During FY 2002 OJP continued to make progress in improving its ability to meet federal financial reporting requirements.  OJP reduced its reportable conditions from three in FY 2001 to one in FY 2002 by implementing corrective action to address weaknesses in property management and the preparation of the management discussion and analysis section of the financial statement.  OJP's remaining reportable condition relates to the need for improvements in electronic data processing access controls and service continuity.  The auditors did not report any material weaknesses or non-compliance with laws and regulations issues.